September 2005
Report No. 05-032


Follow-up Evaluation of the FDIC’s
Corporate Planning Cycle




        EVALUATION REPORT
                                                                                                  Report No. 05-032
                                                                                                   September 2005


                                       Follow-up Evaluation of the FDIC’s Corporate Planning Cycle

                                       Results of Evaluation

                                       DOF has made progress in reducing resources dedicated to the CPC and
                                       streamlining the CPC process. Most division and office representatives
Background and Purpose of              indicated that the resources and time required for the 2005 budget formulation
Evaluation                             process had been reduced. DOF streamlined the cycle time for the budget
                                       formulation exercise from over 6 months for the 2001 budget to 3 months for
                                       the 2005 budget. Nevertheless, division and office representatives expressed
In response to a request by the
Federal Deposit Insurance              concerns regarding several areas in the budget process. We concluded that
Corporation (FDIC) Chief Financial     DOF could further improve the FDIC’s planning and budget process by:
Officer (CFO), we performed this
evaluation to follow up on a July      •   clearly communicating to divisions and offices the basis for proposed
2001 study of the Corporate                budgets in the areas of information technology (IT) services and external
Planning Cycle (CPC) that we had           training;
conducted jointly with the FDIC        •   assessing the methodology, results, and benefits of division and office
Office of Internal Control                 proposals to increase or decrease their respective budget proposals; and
Management, now the Office of          •   documenting and transmitting to divisions and offices the results of
Enterprise Risk Management                 meetings wherein final budget decisions are made.
(OERM). The purpose of the 2001
study was to determine the extent      The FDIC has also made progress in integrating budget and performance goal
of resources involved in carrying      information. In developing the 2005 corporate operating budget, the FDIC
out and supporting the CPC and to
                                       used an approach that involved senior management decisions on strategic
identify opportunities to more
                                       and annual initiatives at the onset of the budget formulation exercise; provided
effectively integrate and streamline
the planning and budgeting
                                       budget representatives planning and budget formulation guidelines developed
process. The Division of Finance’s     through senior management discussion; and required divisions and offices to
(DOF) Corporate Planning &             review and provide input for performance plans, performance objectives, and
Performance Management section         proposed baseline operating budgets. This approach was an improvement
manages the FDIC’s planning and        over the 2001 CPC process wherein the staffing, budgeting, and planning
budget process and provides            processes overlapped and were not as well integrated.
instructions for business planning,
budgeting, and reporting to            However, the FDIC has established two sets of performance measures that
responsible staff.                     are factored into the budget process. We concluded that the FDIC could do
                                       more to integrate and streamline the resulting dual reporting processes for
Our objectives were to: determine      these measures. Because this issue was not within the scope of the CFO’s
whether DOF has been successful        request for a follow-up evaluation of the CPC process, we plan to issue a
in reducing resources dedicated to
                                       separate report on the Corporation’s establishment and use of performance
the CPC and streamlining the CPC
                                       measures at a later date.
process; assess the FDIC’s
success in integrating budget and
performance goal information; and      Additionally, we benchmarked the FDIC’s CPC process against other selected
benchmark the Corporation’s CPC        federal agencies’ planning and budget processes and are providing this
process against other agreed-upon      information for management’s use.
agencies’ or organizations’
processes.                             Recommendations and Management Response

                                       The report contained three recommendations to help ensure that divisions and
                                       offices have adequate information to review and respond to (1) proposed
                                       budgets in the areas of IT services and external training and (2) requests for
                                       proposed increases or decreases to their respective budgets. Another
                                       recommendation was intended to help the FDIC communicate and
                                       institutionalize the streamlined planning and budget process.

                                       DOF generally concurred with our four recommendations, and we consider
                                       management’s actions taken or planned responsive to the recommendations.
To view the full report, go to
www.fdicig.gov/2005reports.asp
                              TABLE OF CONTENTS

EVALUATION OBJECTIVES AND APPROACH                                           1

RESULTS IN BRIEF                                                             2

BACKGROUND                                                                   3
    Corporate Planning Activities                                            4
    Corporate Budgeting Activities                                           5

EVALUATION RESULTS                                                           7
     Reducing Resources Dedicated to the CPC and Streamlining the CPC        7
     Process
     IT and External Training Allocations and the Budget Increase/Decrease
     Proposals Exercise                                                      10
     Integration of Planning and Budgeting With Performance Management       20

RECOMMENDATIONS                                                              23

CORPORATION COMMENTS AND OIG EVALUATION                                      24

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY                               25

APPENDIX II: OTHER AGENCY PRACTICES                                          28

APPENDIX III: PLANNING AND BUDGET GUIDANCE                                   30

APPENDIX IV: CORPORATION COMMENTS                                            32

APPENDIX V: MANAGEMENT RESPONSE TO RECOMMENDATIONS                           37

TABLES:
Table 1: Division and Office Resources Dedicated to the 2005 CPC Process      7
Table 2: Non-CIRC IT Allocation Process and OIG Observations                 11
Table 3: CU’s Proposed Training Allocations                                  13
Table 4: External Training Budget Allocations Proposed for 2005              15
Table 5: Excerpts from Consolidated Plus/Minus 10-Percent Initiatives        17
Discussed at the October 2004 Planning and Budget Conference
Table 6: Corporate Initiatives Funded and Cost Reductions in 2005 Budget     19
Table 7: Excerpts from the 2005 Planning and Budget Guidance                 21
Table 8: Summary of Other Agency Practices                                   29

FIGURES:
Figure 1: FDIC’s 2005 Corporate Planning Cycle                               3
Figure 2: 2003-2005 Corporate Performance Objectives                         4
Figure 3: 2005 Budget Send to Final Budget                                   5
Figure 4: Final 2005 Proposed Operating Budget                               6
Figure 5: 2001 Corporate Planning Cycle Process                              8
Figure 6: 2005 Corporate Planning Cycle Process                              9
ACRONYMS

APP        Annual Performance Plan
BPI        Budget and Performance Information
CFO        Chief Financial Officer
CIRC       Capital Investment Review Committee
COO        Chief Operating Officer
CPC        Corporate Planning Cycle
CPO        Corporate Performance Objectives
CPPM       Corporate Planning & Performance Management
CU         Corporate University
DIR        Division of Insurance and Research
DIT        Division of Information Technology
DOA        Division of Administration
DOF        Division of Finance
DOL        Department of Labor
DRR        Division of Resolutions and Receiverships
DSC        Division of Supervision and Consumer Protection
FDIC       Federal Deposit Insurance Corporation
FFIEC      Federal Financial Institutions Examination Council
FRB        Board of Governors of the Federal Reserve System
FTE        Full-time Equivalent
GPRA       Government Performance and Results Act of 1993
IT         Information Technology
NCUA       National Credit Union Administration
NFE        New Financial Environment
OCC        Office of the Comptroller of the Currency
ODEO       Office of Diversity and Economic Opportunity
OERM       Office of Enterprise Risk Management
OICM       Office of Internal Control Management
OIG        Office of Inspector General
OLA        Office of Legislative Affairs
OMB        Office of Management and Budget
OPA        Office of Public Affairs
OTS        Office of Thrift Supervision
PART       Program Assessment Rating Tool
PBGC       Pension Benefit Guaranty Corporation
PMA        President’s Management Agenda
                                                                           Results in Brief



RESULTS IN BRIEF

We concluded that DOF has made progress in reducing resources dedicated to the CPC and
streamlining the CPC process. Most FDIC division and office representatives we interviewed
indicated that the resources required and the time involved for the 2005 budget formulation
process had been reduced, in part, because DOF had proposed division and office budgets
using a baseline methodology rather than requiring each division and office to formulate its own
detailed budget justifications. However, specific information on the resources and time required
was not accumulated; therefore, we could not verify these assertions. In addition, DOF
streamlined the cycle time for the budget formulation exercise from over 6 months for the 2001
budget to 3 months for the 2005 budget.

Nevertheless, division and office representatives expressed concerns regarding several steps in
the budget formulation process. Such concerns were generally consistent with the results of the
2004 CFO study. We concluded that DOF could further improve the process by:

•   clearly communicating to divisions and offices the basis for proposed budgets in the areas of
    information technology (IT) services and external training;
•   assessing the methodology, results, and benefits of division and office proposals to increase
    or decrease their respective budgets proposals; and
•   documenting and transmitting to divisions and offices the results of senior management final
    budget decisions.

DOF has made additional progress since the 2001 CPC in integrating budget and performance
goal information in developing the 2005 corporate operating budget by:

•   making senior management decisions on strategic and annual initiatives and goals at the
    onset of the budget formulation exercise;
•   providing budget representatives planning and budget formulation guidelines developed
    through FDIC senior management discussion; and
•   requiring division and office directors’ review of and input for performance plans,
    performance objectives, and proposed baseline operating budgets.

However, the FDIC has established two sets of performance measures — Annual Performance
Plan (APP) goals and Corporate Performance Objectives (CPO) — that are factored into the
budget process. We concluded that the FDIC could do more to integrate these measures and
streamline the resulting dual reporting processes for these measures and believe this area
warrants further evaluation. Because this issue was not within the scope of the CFO’s request
for a follow-up of the CPC process, we will issue a separate report focused on the Corporation’s
establishment and use of performance measures at a later date.

As requested by the CFO and DOF, we benchmarked the FDIC’s CPC process against other
selected federal agencies’ planning and budget practices. Our results are provided in
Appendix II.




                                                2
                                                                                    Background



BACKGROUND
The CPC process involves: senior corporate executives, division and office directors and
planning and budget contacts, the CFO and DOF officials, and CPPM Section officials. In 2003,
the FDIC implemented a streamlined planning and budget process to reduce the resources
required to develop the 2004 and, ultimately, the 2005 APP and corporate operating budget.
Figure 1 presents an overview of the FDIC’s 2005 planning and budgeting process.

           Figure 1: FDIC’s 2005 Corporate Planning Cycle


                                               I. Strategic Plan
                                                  2001-2006




                 VI. FDIC Board
                    Approval                                        II. Workload
                      of the                                          Assumptions
                     Budget




                  V. Chairman
                                                                      III. APPs
                  Approval of
                    CPOs &                                                and
                                                                        CPOs
                    Sr. Mgt.
                                                   IV. Budget
                   Review of
                                                  Formulation
                     APPs
                                               -Sr. Mgt. Meetings
                                                  -Budget Send
                                                -Budget Receive
                                              - Planning & Budget
                                                   Conference


           Source: Office of Inspector General (OIG) analysis.




                                                      3
                                                                                                      Background



Corporate Planning Activities

The FDIC’s planning process starts with its long-range                                   2005 Strategic Goals
strategic plan that identifies strategic goals and                       1.   Insured depositors are protected from loss
objectives for the Corporation’s three major programs –                       without recourse to taxpayer funding.
                                                                         2.   FDIC-supervised institutions are safe and
Insurance, Supervision, and Receivership Management.
                                                                              sound.
The Government Performance and Results Act of 1993                       3.   Consumers’ rights are protected, and
(GPRA) requires that strategic plans be updated every                         FDIC-supervised institutions invest in their
3 years. The FDIC adopted its initial strategic plan in                       communities.
1995 and has reviewed and updated its strategic plans                    4.   Recovery to creditors of receiverships is
                                                                              achieved.
every 3 years as required under the GPRA. In January
2005, the FDIC Board approved the current Strategic                      Source: 2005 Corporate Annual Performance Plan.
Plan 2005-2010.

The FDIC’s strategic plan is implemented through the APP, which includes annual performance
goals, indicators, and targets for each strategic objective. The performance goals use a mix of
output and milestone targets to focus and measure the FDIC’s efforts toward accomplishing its
mission. DOF submits quarterly reports reflecting APP results, on an exception basis, to the
Chief Operating Officer (COO) and the CFO. The reports identify the number of performance
targets that have been met or exceeded for the APP goals during the quarter, provide the status
of the APP goals/targets that have not been met, and explain why they have not yet been
achieved. Additionally, the FDIC submits an Annual Report to the Congress that compares
actual performance to the annual performance goals. The FDIC issued its 2005 Corporate
Annual Performance Plan in early April 2005, which includes the strategic goals illustrated in the
sidebar. The 2005 APP also includes 18 annual performance goals and a separate section,
Effective Management of Strategic Resources, which discusses the management of financial
resources, human capital, and information technology resources but does not include goals for
these areas.
                                         Figure 2: 2003- 2005 Corporate Performance Objectives
The FDIC initiated the CPOs in
2002. Since 2003, the FDIC has
restructured the CPOs to align with
the corporate priorities of Stability
of the industry and the insurance                                             Sound Policy
funds, Sound Policy positions
supported by substantive research
and led by comprehensive deposit
                                                             Stability                           Stewardship
insurance reform legislation, and
Stewardship of the Corporation
and insurance funds to ensure that
the FDIC operates in the most
efficient and effective manner
                                                                                    2004                    2005
possible. As shown in Figure 2, the                   2003
                                                                                 16 CPOs                  13 CPOs
                                                   18 CPOs
FDIC has significantly reduced the               115 Initiatives               136 Initiatives          42 Initiatives
number of CPOs and performance
initiatives since 2003.

                                        Source: OIG analysis of the FDIC’s 2003-2005 CPOs.




                                                   4
                                                                                                          Background



Corporate Budgeting Activities

The FDIC adopted a new baseline budgeting              Figure 3: 2005 Budget Send to Final Budget
methodology for the 2004 budget
                                                                        2005 Budget Send to Final Budget
exercise and modified the budget process
based on findings and recommendations from
the 2004 CFO study. For the 2005 budget,               $1,200,000,000
                                                                            $1,109,598,226
                                                                                             $1,117,057,806 $1,101,392,178
DOF formulated and sent the budget (referred
to as the Budget Send) to each division and             $1,100,000,000
office on August 13, 2004 for review and
responses for budget adjustments. The
                                                       $1,000,000,000
Budget Send package included instructions                                Budget Send         Budget     Final Budget
for completing the reviews of the budget.
                                                                                         Receive
Appendix III of this report includes more detail
on the planning and budget guidance.                     Source: OIG analysis of DOF budget documents.

DOF’s baseline 2005 operating budgets submitted to FDIC divisions and offices were generally
based on actual 2004 spending during the first 6 months of 2004 and budgeted expenses for
the remainder of the year, adjusted for inflation. For some accounts, DOF used a 3-year
average actual spending amount, adjusted for inflation. DOF requested that divisions and
offices respond to the proposed operating budget (referred to as the Budget Receive) by
September 13, 2004. On October 4 and 5, 2004, senior management held a planning and
budget conference to discuss the Proposed 2005 Budget, the APPs, and the CPOs. As a result
of the discussion, DOF made additional adjustments and developed the final budget proposed
to the FDIC Board. Figure 3 provides a comparison of the Budget Send and the Final Budget
presented to the FDIC Board. On December 7, 2004, the FDIC Board approved the 2005
proposed final budget. The 2005 final budget included the addition of approximately $20 million
to fund various corporate priorities not included in the 2004 budget which had been used for
baselining purposes. The 2005 final budget of about $1.1 billion included the following major
expense categories:

   •   Salaries and Compensation – $695 million (63 percent)
   •   Outside Services (Personnel) - $215 million (20 percent)
   •   Other - $192 million (17 percent)




                                                   5
                                                                                                        Background



Figure 4 shows the 2005 final proposed budget for each division and office as well as funding
for government litigation.

Figure 4: Final 2005 Proposed Operating Budget

                                  Final 2005 Operating Budget
                                              $1,101,392,178
                                           Gov't. Litigation,
                       OIG, $29,043,967     $35,000,000
                                                            Other Offices, $20,593,298


                     Legal, $97,361,536

                CU, $13,910,053                                                     DSC, $375,860,738

                 DOF, $30,124,938




              DOA, $170,884,749




                                                                                  DIR, $35,453,850



                                    DIT, $158,838,760
                                                                   DRR, $134,320,289



Source: OIG analysis of Proposed 2005 Budget submitted to the FDIC Board.



The FDIC also has a separate Investment Budget that is composed of individual project budgets
approved by the FDIC Board for major investment projects. Budgets for investment projects are
approved on a multi-year basis, and funds for an approved project may be carried over from
year to year until the project is completed. Effective January 1, 2005, all funding for future
salary and benefits expenses, except overtime, was removed from the Investment Budget by
FDIC Board resolution. The salary and benefits expenses are included in the FDIC’s Corporate
Operating Budget.




                                                               6
                                                                                     Evaluation Results



EVALUATION RESULTS

Reducing Resources Dedicated to the CPC and Streamlining the CPC
Process

DOF has made progress in reducing resources dedicated to the CPC and streamlining the CPC
process. DOF reduced the cycle time for the budget formulation exercise from over 6 months
for the 2001 budget to 3 months for the 2005 budget.

Resources for the CPC Process

To determine the number of individuals involved in the process, we asked the divisions and
offices to identify the amount of time spent on and individuals who were responsible or provided
input for the following processes:

   •     strategic and annual performance planning and CPOs;
   •     staffing; and
   •     budget planning, formulation, and review.

We interviewed division and office budget contacts to determine whether DOF had made
progress in reducing resources dedicated to the CPC. As illustrated in Table 1, we received a
variety of answers; however, most divisions and offices reported that they had dedicated fewer
resources to the 2005 CPC process than in prior years.

Table 1: Division and Office Resources Dedicated to the 2005 CPC Process
 Division/Office             Staff Time Devoted to Process
 Division of Supervision            43        1 individual 100 percent (includes budget execution), 1 individual 30
 and Consumer Protection                      percent, 18 individuals 2 hours each, and 23 individuals 1-10
 (DSC)                                        percent.

 Division of Resolutions            10        10 individuals 20-35 percent and multiple champions providing input
 and Receiverships (DRR)                      for division objectives (no time identified).

 Division of Insurance and          23        2 individuals 60-75 percent (3 month period) and 21 individuals 3-10
 Research (DIR)                               days each.

 Division of Information            24        3 individuals 60-68 days each, 18 individuals 10 days each,
 Technology (DIT)                             3 individuals 3-5 days each.

 Division of Administration         11        2 individuals 100 percent (includes budget execution), 1 individual
 (DOA)                                        25 percent, 8 individuals (no time identified).

 DOF                                7         Various times of the year: 2 individuals 30-45 percent, 2 individuals
                                              10-15 percent, 1 individual 1 percent, and 2 individuals (no time
                                              identified).
 Legal Division, Corporate          30        Generally, 1-4 individuals for various amounts of time.
 University, and Offices
 Total                              148
Source: OIG interviews with division and office representatives.

The 2004 CFO/DOF study identified that some divisions and offices voluntarily formulated their
own budgets, citing the need for accountability at the lower levels of their organizations as well



                                                         7
                                                                                             Evaluation Results



   as the need to verify the reasonableness of the baseline budgets provided by DOF staff.3 Thus,
   DOF concluded at that time that it was unclear whether cost savings that had been anticipated
   as a result of the baseline budgeting exercise were fully realized. Similarly, one division told us
   that the 2005 budget formulation process was not streamlined and that the division still
   formulated its own budget using headquarters and regional office input and comparing the
   results with the DOF-proposed baseline budget.

   Divisions and offices do not use a project code or other identifier to capture an individual’s time
   spent for planning and budget processes. Therefore, we could not determine the exact amount
   of resources used for the Corporation’s planning, staffing, and budgeting processes or the exact
   number of resources dedicated for the 2005 budget planning and formulation exercise
   compared to the 2001 exercise. The FDIC’s New Financial Environment (NFE) now includes a
   program code for charging the budgetary functions. Therefore, future efforts to associate
   resources and costs with the various planning and budgetary activities should be achievable.
   Comparing the number of resources for the 2005 CPC process to the resources for the 2001
   CPC process would have little, if any, value because the FDIC has made significant changes to
   its process since 2001, such as the addition of CPO planning and the elimination of the
   extended and separate core staffing exercise.

   Streamlining the CPC Process

   The FDIC has made progress in streamlining the planning and budgeting process. Specifically,
   the budget formulation cycle was reduced from more than 180 days for the 2001 CPC to 90
   days for the 2005 planning and budgeting process. As shown in Figure 5, the 2001 budget
   started in mid-May 2000 with the Planning Kick-off Meeting and ended in early December 2000.

   Figure 5: 2001 Corporate Planning Cycle Process

   Planning activities ending with May
   presentation to Operating Committee
   regarding:
   --Industry projections and analysis.
   --Corporate workload assumptions.            Budget
                                                                                                                      FDIC
   --Staffing levels.                           instructions
                                                                                                                      Board
   --Changes in business strategies.            issued to
                                                                                                                      Approval
   --New initiatives.                           divisions
                                                                                                                      of the
                                                and offices
                                                                                                                      Budget
   Workload                        Planning
   Analysis                        Kick-off     Divisions and offices prepared their respective         Sr. Mgt. analysis of
                                   Meeting      2001 budgets                                            budget submissions
                                   with Sr.
                                   Mgt.

  Feb         Mar        Apr         May      June        July        Aug         Sept            Oct        Nov          Dec
Source: 2001 OIG/OICM Study of the Corporate Planning Cycle.

   One of DOF’s 2003 annual goals was to recommend and implement a streamlined annual
   planning and budget process to significantly reduce the total staff time and cost required to
   develop the APP and corporate budget. In May 2003, DOF presented a streamlined planning
   3
    Our evaluation did not assess the reasonableness of the baseline budgets or the effectiveness and efficiency of the
   allocation of resources resulting from the streamlined process. (See Appendix I for additional information on our
   scope and methodology.)


                                                               8
                                                                                         Evaluation Results



   and budgeting proposal to the FDIC’s Operating Committee for the 2004 planning and budget
   formulation process. The proposal showed that the budget formulation process -- from
   establishing the planning/budget assumptions to submitting the proposed 2004 budget to the
   FDIC Board -- would be reduced to 120 days (mid-July to mid-November). In addition, division
   and office staff would be required to spend about 90 days to support the budget formulation
   process as compared to 150 days spent for the 2003 budget.

   DOF reported achievement of the 2003 goal to streamline the planning and budgeting process
   and announced that the process for the 2004 budget more closely linked the planning process
   to the budget and that the process had been shortened by 60 days. The 2004 CFO study
   referenced six goals for consideration in implementing the 2005 budget and corporate planning
   processes, including the following goals related to streamlining the budget process:

   1. Continue to streamline the process and compress the budget formulation cycle time to no
      more than 90 days (down from 120 days employed in the 2004 process).
   2. Compress the period of individual client division and office involvement in the process to no
      more than 60-75 days (down from 75-90 days employed in the 2004 process).

   The January 2005 edition of FDIC News included an article entitled, The 2005 Budget:
   Responding to a Changing Industry, which states that the accelerated 90-day 2005 planning
   and budget process was a “departure from past efforts that required much more time on the part
   of managers and their staffs.” The article further states, “This streamlined process, which
   utilizes baseline budgeting techniques, frees senior managers and their staffs from formulating
   some of the very detailed budget request justifications they had to put together in the past.”
   DOF determined the 90-day timeframe using the senior management meeting held in July 2004
   as a start of the cycle time and the senior managers’ planning and budget conference held in
   October 2004 as the end of the cycle. Figure 6 presents the 2005 CPC process.

Figure 6: 2005 Corporate Planning Cycle Process


                                                                     Budget
                                                      July 8         instructions
                                                      Sr. Mgt.       issued               Oct. Planning
                                                      Meeting:       (Budget              and Budget
                                                      Overview       Send) to             Conference
                                                      2005           divisions            with Sr. Mgt.
                                                      Process        and offices                            FDIC
                                                                                                            Board
                                                                                                            Approval
   DIR Workload                                         July 21                     Divisions
                                                                                                            of the
   Analysis                                             Sr. Mgt.                    and offices
                                                                                                            Budget
                                                        Meeting:                    submit
                                                        2005                        Budget
                                                        Guidelines                  Receive


  Feb       Mar        Apr       May       June       July       Aug          Sept          Oct       Nov      Dec
Source: Interviews with DOF and OIG analysis of 2005 planning and budget documents.




                                                         9
                                                                                         Evaluation Results



IT and External Training Allocations and the Budget
Increase/Decrease Proposals Exercise
Division and office representatives expressed concerns about several areas in the budget
process. These comments were generally consistent with the results of the 2004 CFO study of
the planning and budgeting activities. We concluded that DOF could further improve the FDIC’s
planning and budget process by:

•   clearly communicating to divisions and offices the basis for proposed budgets in the areas of
    IT services and external training;
•   assessing the methodology, results, and value of division and office proposals to increase or
    decrease their respective budgets (plus/minus 10-percent exercise); and
•   documenting and transmitting to divisions and offices the results of senior management
    meetings wherein final budget decisions are made.

IT Allocation

The proposed 2005 Operating Budget included an allocation totaling about $47 million to
address each division’s IT systems development/maintenance needs that are neither included in
the investment portion of the budget nor subject to Capital Investment Review Committee
(CIRC) oversight.4 Approximately two-thirds of the allocation—referred to as the Non-CIRC IT
allocation in the Budget Send—was for system maintenance and sustaining base,5 and
one-third of the allocation was for the client division’s or office’s discretionary IT projects. The
Non-CIRC IT allocation represented about 4 percent of the 2005 proposed operating budget.
The final Non-CIRC IT allocation resulted in about a 1-percent reduction in the proposed
allocation. Table 2 on the following page presents an overview of the Non-CIRC IT allocation
process and our observations.




4
  In 2002, the FDIC established the CIRC, which reviews and oversees all major investment projects costing
$3 million or more, whether IT-related or not, as well as certain other projects that cost less but are not considered
mission-critical to the FDIC.
5
  A sustaining base project encompasses work required to sustain and support existing systems operations and
functions (e.g., budgeting and planning).


                                                           10
                                                                                             Evaluation Results



Table 2: Non-CIRC IT Allocation Process and OIG Observations
        Budget Send                Budget Receive         October 2004 Planning and
                                                             Budget Conference
    DOF developed the Non-CIRC IT          Divisions and DIT worked together           FDIC senior managers reviewed and
    allocation using 2004 IT project       to determine maintenance and                prioritized a consolidated list of the
    data and major IT events budgeted      sustaining base needs and planned           division’s or office’s proposed Non-
    for 2004.                              IT initiatives. DIT provided                CIRC IT allocations and decided which
                                           estimated IT costs for each project         projects and initiatives would be
    DOF instructions allowed divisions     or initiative to the respective division.   included in the 2005 budget.
    to reallocate funds from their IT
    allocation to a major expense          The Budget Receive included an
    category within their own operating    attachment entitled, Projected 2005
    budget. However, no division could     Non-CIRC Information Technology
    reduce its IT allocation below the     Initiatives, which listed the proposed
    baseline level needed by DIT to        IT initiatives to be pursued by each
    maintain and operate the division’s    division or office with its 2005 Non-
    existing systems. DIT made an          CIRC IT Allocation. This attachment
    initial estimate of the 2005           included a signature line as a control
    maintenance/sustaining base cost       to document DIT concurrence with
    for each division, but that estimate   the respective division’s/office’s
    could be modified, with notification   proposed IT initiatives.
    to DOF, by mutual agreement
    between DIT and the client division.
    DOF included an attachment for
    each division that separately
    identified maintenance/sustaining
    base funds and client discretionary
    funds for the Non-CIRC IT
    allocation.

    DOF included a consolidated Non-
    CIRC IT allocation for most of the
    office-level organizations in DIT’s
    operating budget.
                                                    OIG Observations
    Concerns expressed by divisions        Budget Receive documentation                Although DOF briefed divisional and
    and offices included confusion         showed that two divisions reduced           office deputy directors, there were
    about the process for allocation       their maintenance/sustaining base           instances in which divisional budget
    development, adequacy of the           cost. Moreover, only 3 of 11                contacts were not aware of final
    allocation, and the need for better    divisions and offices obtained DIT          Non-CIRC IT allocation decisions.
    communication between the client       concurrence for proposed IT
    division/office, DIT, and DOF prior    initiatives.
    to transmitting the Budget Send.


Source: OIG interviews and analysis of planning and budget documentation.

Some divisions stated that the Non-CIRC IT allocation process had improved in comparison to
the 2004 process. However, they expressed concerns about the formulation of the Non-CIRC
IT allocation, the adequacy of the maintenance/sustaining base cost, and the lack of flexibility in
this process.

•      One division stated that the Non-CIRC budget number was provided with no supporting data
       or methodology to show how the number was derived. This division also stated that the
       Non-CIRC IT requirements are not defined up front, which could result in delayed system
       enhancements and maintenance.




                                                              11
                                                                         Evaluation Results



•   Another division did not understand how the amount for the Non-CIRC IT allocation had
    been determined and believed that its concerns over the adequacy or appropriateness of
    the amount had not been considered.

•   Another division stated that better communication was needed between the division and DIT
    and DOF before the Budget Send was provided to the divisions for responses.

The Budget Receive package included a signature line to document DIT’s concurrence with
division/office proposed IT initiatives. We reviewed the Budget Receive package and found that
only 3 of the 11 divisions/offices had obtained a DIT concurrence (i.e., signature). To illustrate
the significance of the DIT concurrence, DOF budget guidance states that the information
provided by the divisions and offices in the attachment listing the proposed IT initiatives would
be largely used to support the presentation of the budget to the FDIC Chairman and the Board
of Directors in October-November 2004.

DOF told us that the Budget Receive packages had been updated more than once and that the
original attachment could have been signed, but DOF did not ensure that the final version had
DIT’s concurrence signature. DOF indicated that the respective DOF budget contact assigned
to each division or office functions as a control to ensure DIT and the client division agreed with
the allocation. DOF acknowledged that the purpose of the signature line is to ensure DIT
concurrence with division/office-proposed IT initiatives.

According to DOF’s budget instructions, no division could reduce its IT allocation below the
baseline level needed by DIT to maintain and operate the division’s existing systems; however,
the estimate could be modified, with notification to DOF, by mutual agreement between DIT and
the client division. Our analysis of the Budget Send and Final Budget Proposed to the Board
showed that the maintenance and sustaining base projects for two client divisions had been
reduced. Unlike the formal DIT concurrence for a respective division’s proposed IT initiatives,
DOF’s budget instructions did not require, and the Budget Receive did not include, a formal
concurrence, that is, a signature line, for a proposed reduction in the maintenance and
sustaining base.

External Training Budget Allocation

The 2005 Budget Send included a proposed Corporate University (CU) $14 million internal
operating budget and a proposed $3.4 million budget allocation for external training as a
separate expense category in each of the division’s and office’s budgets. In regard to CU’s
operating budget, FDIC senior management exempted CU from the baseline budgeting process
and agreed that the 2005 budget for CU would remain at the same level as the FDIC Board-
approved 2004 budget (adjusted for inflation).

DOF’s budget preparation instructions provided a limited explanation on the development of the
external training budgets. The instructions stated that based on a CU Governing Board decision,
CU would be responsible for reviewing the proposed training budget on a corporate basis, in
consultation with the divisions and offices, and for submitting to DOF any proposed changes to
the training allocations for the divisions and offices. DOF’s instructions further indicated that,
after review, these budgets were to be returned to, and administered by, each division/office.




                                                12
                                                                                      Evaluation Results



We determined that the division and office training budgets were developed, as follows:

•    For the 2005 Budget Send (August 2004), DOF estimated about $3.4 million in external
     training costs for the divisions and offices based on the 2004 (January through June) actual
     external training costs.

•    Following the Budget Receive6 (due in mid-September 2004), CU presented a revised 2005
     external training budget for a total of about $3.3 million at the October 2004 planning and
     budget conference. CU developed the revised budget by dividing the estimated 2004
     external training costs by division and office Full-Time Equivalent (FTE) staff members to
     arrive at a per capita cost for each division and office. In addition, CU applied a 10-percent
     reduction to each division’s and office’s training budget, in accordance with a CU Governing
     Board decision for a per capita reduction in external tuition and fees based on 2004
     expenditures. The per capita approach and the 10-percent reduction did not apply to certain
     CU programs for external training – the CU External Developmental Program, Individual
     Learning Accounts, and Federal Financial Institutions Examination Council (FFIEC)7 – which
     represented about $1.1 million of the total $3.3 million external training budget with the
     remaining $2.2 million allocated to divisions and offices.

After the October 2004 planning and budget conference, CU updated the divisions’ and offices’
external training budgets by using 9-months’ actual training costs and applying a 3-tier cost
allocation estimating methodology using a $600 per capita ceiling cap and a $200 per capita
floor. If the estimated per capita cost exceeded $600, the per capita cost was capped at $600. If
the estimated per capita cost was less than $200, CU raised the division’s/office’s estimated per
capita cost to $200. Finally, CU multiplied the estimated or adjusted per capita cost by the
division’s/office’s FTEs to determine the proposed 2005 external training budget allocation.
Table 3 shows CU’s updated training allocation for three divisions.

Table 3: CU’s Proposed Training Allocations
    Division/Office   CU Estimated 2004   Estimated    Per Capita    Less    Adjusted         2005         Percent
                         Training Cost    FTE Staff      2004        10%     2005 Per        Training     Difference
                          Annualized        as of       Training              Capita      Budget (Per
                       (9-Month Actual)    1/1/05        Cost                 Costs       Capita Cost
                                                                                          Times FTEs)
         DIT              $377,433           410          $921       $829      $600         $246,000         -35%
        DOA               $253,915           436          $582       $524      $524        $228,464          -10%
    Legal Division        $93,331            505          $185       $167      $200        $101,000           8%
Source: 2005 Division/Office Training Budget – Using 3-Tier Cost Allocation, and OIG analysis.




6
  There were minor differences between the Budget Send and the Budget Receive external training budget
allocations. Specifically, one organization increased its external training budget by $415,217, and another
organization decreased its budget by $4,691, resulting in a total allocation of about $3.8 million for the Budget
Receive.
7
  The FFIEC is a formal interagency body empowered to prescribe uniform principles, standards, and report forms for
the federal examination of financial institutions by the Board of Governors of the Federal Reserve System (FRB),
FDIC, the National Credit Union Administration (NCUA), the Office of the Comptroller of the Currency (OCC), and the
Office of Thrift Supervision (OTS). The FFIEC makes recommendations to promote uniformity in the supervision of
financial institutions. As a member of the FFIEC, the FDIC participates on task forces to carry out interagency
objectives and activities. The focus of one task force is on examiner education. CU’s course index includes FFIEC
courses.




                                                        13
                                                                          Evaluation Results



The examples below show that the divisions and offices we interviewed did not agree with CU’s
budget formulation process.

•   One division with a significant number of FTEs stated that there was a lack of
    communication between the division staff, DOF, and CU in developing the external training
    budget and believed that the process limited open discussions and consideration of new
    cost initiatives for training. This division noted that the FDIC Chairman approved a
    corporate initiative that involved training, yet CU did not propose funds for training needed
    for the initiative. According to the division, there was no flexibility in discussions during the
    budget process. CU eventually reallocated more funds to this division’s training budget from
    a CU reserve pool for the training initiative, but the division will have to absorb the travel
    costs associated with the training from other divisional expense categories.

•   One division stated that it did not agree with CU’s per capita rate methodology of formulating
    the division’s training budget.

•   One division stated that it had developed a training budget based on historical spending
    rates, but CU decreased the training budget by 70 percent without providing any detail or
    explanation for the reduction.

•   One division stated that its main concern was that CU did not interact with the division. This
    division questioned whether CU could accurately review and approve a budget for a division
    without knowing the division’s needs.

•   One division stated that CU reduced the division’s proposed training budget, and the
    division had to reallocate funds to compensate for the decrease.

CU’s budget staff acknowledged that the divisions and offices were dissatisfied with the budget
formulation for external training and that three divisions and one office had offered revised FTE
training estimate proposals. However, these revised proposals were not included in the final
external training allocations presented in the final 2005 operating budget that had been
approved by the FDIC Board. Table 4 on the next page shows the external training allocations,
by division and office, for the Budget Send; CU’s per capita estimates; CU’s 3-tier methodology;
and the final allocation. Table 4 also shows the changes from the 2004 external training
budgets to the CU allocations for 2005 for each division and office.




                                                 14
                                                                                       Evaluation Results



 Table 4: External Training Budget Allocations Proposed for 2005
   Division or   2004        Budget     CU Per     CU 3-Tier      Final                                Difference
     Office     Budget        Send      Capita     Allocation  Allocation                               2005 vs.
                            (8/2004)   Allocation  (10/2004)                                              2004
            CU       $ 10,000       $    10,000       $     9,000      $     8,550     $     8,550            -15%
           DSC        1,155,805         579,122           521,210          988,213         988,213            -15%
            DIR         124,924         111,949           100,754           74,306          74,306            -41%
           DRR          248,218         202,747           182,472          136,818         136,818            -45%
            DIT         550,000         517,000           465,300          246,000         246,000            -55%
           DOA          485,533         366,345           329,711          228,523         228,523            -53%
           DOF          182,014         216,632           194,969          117,600         117,600            -35%
          Legal         125,000         119,083           107,175          101,000         101,000            -19%
     Executive           27,000          20,637            18,573           12,600          12,600            -53%
          Office
         ODEO            49,698         49,046           44,141           20,400           20,400             -59%
         OERM            10,400          7,617            6,855            6,000            6,000             -42%
           OLA            2,808          1,425            1,283            2,000            2,000             -29%
            OO            4,188          4,241            3,817            3,600            3,600             -14%
           OPA            2,376          1,206            1,085            2,200            2,200              -7%
    CU – Other          190,000        190,000              N/A              N/A          290,000           +53%*
   DSC - FFIEC          800,000        781,550              N/A              N/A          781,000            -2.4%
           OIG          263,904        248,901          219,789              N/A          244,210              -7%
          Total      $4,231,868     $3,427,501       $2,206,134       $1,947,811       $3,263,020             -23%
 Source: Budget Send, Budget Receive, and CU spreadsheets.
* Increase reflects $100,000 budgeted for Individual Learning Accounts pilot program to provide increased flexibility
in the design of learning opportunities for randomly selected employees authorized to spend up to $2,500 and up to 3
work days to attend external training.

We concluded that DOF and CU could have more effectively communicated with the division
and office budget representatives responsible for formulating the budgets and explaining the
methodology and basis for the external training budget allocations. Further, as depicted in
Table 4, it appears that CU’s 3-tier methodology for determining division and office allocations
went beyond the 10-percent reduction.




                                                          15
                                                                          Evaluation Results



Budget Increase/Decrease Proposals Exercise

Although DOF employed a baseline budget approach largely based on 2004 spending levels,
DOF afforded divisions and offices two opportunities to adjust their budget proposals to reflect
new 2005 initiatives or cost reductions. First, in July 2004, prior to the Budget Send, DOF
requested that each division and office director submit workload or other factors that were
expected to affect each division’s or office’s 2005 staffing or other budgetary requirements.
Some submissions had been included in the Budget Send instructions and had been identified
as approved adjustments to the baseline operating budgets.

Second, DOF’s Budget Send included Attachment 12, 2005 Budget Increase/Decrease
Proposals, with instructions that each division and office use the attachment to provide specific
proposals that address two key questions:
                                                             The written instructions relating to the
•   How would the division/office use an increase of up      “plus/minus 10-percent exercise” were
                                                             limited to stating that:
    to 10 percent in its 2005 operating budget                • proposals involving staff resources
    (including its Non-CIRC IT allocation)?                     would be costed for the full 12 months
                                                                of 2005 even though such staffing
•   How would the division/office absorb a reduction of         changes might not be realistically
                                                                implemented for the full year,
    up to 10 percent in its 2005 Operating Budget
                                                              • senior management would discuss
    (including its Non-CIRC IT Allocation)?                     proposals at the October 2004
                                                                Planning and Budget Conference, and
At the July 8, 2004 planning/budget kick-off meeting,         • each division and office must complete
DOF advised division and office senior management               specific attachments, including
                                                                Attachment 12, and submit them to
that the 2005 budget process would parallel the 2004            DOF’s Deputy Director, over the
process, which also included the “plus/minus 10                 signature of the division/office director
percent” exercise, except that the increase or decrease         or other authorized senior officer.
proposals would reflect “up to” 10 percent of the 2005
operating budget rather the full 10 percent used for the
                                                             Source: Attachment 5 of DOF’s Budget
2004 budget. The plus/minus 10-percent exercise was
considered a critical component of the budget process. The intent of the exercise was to
consider efficiency and priority from a corporate perspective. The proposed 2005 operating
budget of the Budget Send totaled about $1.11 billion. The plus/minus 10-percent exercise had
the potential of increasing or decreasing the budget by about $111 million.

Based on the CFO 2004 study of the planning and budgeting process, some divisions and
offices stated that the plus/minus 10-percent exercise prompted staff to prioritize division and
office goals. The divisions and offices with the majority of their budgets made up of salaries and
compensation believed the plus/minus 10-percent exercise resulted in significantly cutting staff,
altering their mission, and/or significantly reducing support provided to other divisions within the
Corporation. Some divisions and offices also concluded that their ideas and initiatives were not
seriously considered in the budgeting process. Further, the divisions and offices expressed a
need for more communication and feedback in order to better understand the intentions of the
exercise.

Similarly, the divisions and offices we interviewed stated that the plus/minus 10-percent effort
was a good exercise but that it was less appropriate when more than 90 percent of the budget
constituted personnel costs. We also found that the divisions and offices continued to believe
that the communication from DOF needed improvement. For example, one division told us that
no one looks at the plus 10-percent side and evaluates the initiatives. Instead, the division



                                                16
                                                                                     Evaluation Results



stated that the minus 10-percent side is scrutinized, making this part of the budget process a
cost-cutting exercise. Division representatives expressed that the 2005 guidance was
misleading and that there was a need for clarification of the plus/minus 10-percent exercise.

Our review of the 2005 Budget Receive documents showed that two of the divisions and offices
did not provide a response to the two key questions and that another division did not respond to
the minus 10-percent question. These three divisions and offices accounted for about 56
percent of the budgeted dollars reflected in the Budget Send. The lack of responses from these
key divisions and offices limits the effectiveness of the plus/minus 10-percent exercise in the
new baseline budget process. Specifically, the exercise may not provide FDIC senior
management with all the potentially viable options for prioritizing initiatives.

DOF provided senior management with a consolidated list of the plus/minus 10-percent
initiatives for discussion. This list included some initiatives that were not part of the division and
office responses in the Budget Receive plus/minus 10-percent exercise. Table 5 presents
selected initiatives from the consolidated list presented at the October planning and budget
conference.

Table 5: Excerpts from Consolidated Plus/Minus 10-Percent Initiatives Discussed at the
October 2004 Planning and Budget Conference
Plus 10-Percent Initiatives                     Amount     Minus 10-Percent Initiatives              Amount
                                                (000s)                                               (000s)
CU—Fund 8 FTEs to provide faculty and            $ 1,120   CU—Postpone conversion of three online/     $ 600
support                                                    classroom courses to Web-based training
DIR—Improve DIR’s IT function                     1,095    DIR—Stop/defer most system                  1,000
                                                           enhancements and reduce IT
                                                           development projects
DIR—Hire visiting scholars for the Center for       350    DIR—Reduce costs by decreasing               326
Financial Research                                         frequency of FDIC Outlook and FDIC
                                                           Banking Review to semiannually
DIT—Mainframe back-up/disaster recovery           3,346    DOA—Move to a self-insurance program        1,687
DIT—Establish an E-business strategy                500    DOF—Eliminate filled, previously             945
                                                           identified surplus (10) positions
DOA—Improvements to the Student                   2,000    DRR—Reduce approximately 60 staff           8,300
Residence Center                                           resources in the asset management area
DRR—Consultant services for the Asset             2,000    ODEO—Eliminate 4 staff positions             528
Valuation Review Process methodology
DSC—Financial Literacy Education                  2,000
Commission
DSC—Development and purchase of                   1,500
Hispanic media and print in 14 markets
DSC—Bank Secrecy Act/Offsite Monitoring              750
training and outreach to regions
Total of 43 Plus Initiatives                   $32,794     Total of 25 Minus Initiatives             $18,297
Source: OIG analysis of proposed plus/minus initiatives.

Prior to the October 2004 planning and budget conference, the COO and CFO reviewed the
consolidated list and identified the most important initiatives. DOF sent an e-mail message to
the division and office directors, advising that every division/office would not be required to




                                                       17
                                                                                    Evaluation Results



present its plus/minus 10-percent proposals at the conference. The e-mail further states that
the COO and CFO decided:

        our time would be better spent by selecting ideas from the proposals submitted that
        were significant and realistic enough to merit discussion by the full group. The ideas that
        were selected for discussion are shown on the agenda. If an idea submitted by your
        organization has been omitted and you feel it should be placed on the agenda for
        discussion, please let me know on Monday [first day of the conference] morning and we
        will add it to the agenda.

A DOF official told us that this e-mail message “serves to document the disposition/elimination
of most of the plus and minus 10-percent proposals.”

The conference agenda included six Possible Budget Increase proposals with a total value of
$12.1 million and four Possible Budget Reduction proposals with no specific dollar values
identified.8 The DOF official told us that another $1.0 million plus 10-percent proposal,
E-Banking Failure Simulation, was added to the agenda during the conference. The DOF
official stated that five of the seven increase proposals were proposed in the final budget at
substantially lower amounts. DOF did not maintain information on the cost reduction proposals
discussed at the conference.

We could neither determine the exact number of plus/minus initiatives that were ultimately
included in the final 2005 budget nor verify the funding of the proposals discussed at the
October conference. DOF told us that it did not track the specific number of plus/minus
initiatives but pointed out that the initiatives specified in the proposed 2005 budget briefing
materials presented to the FDIC Board in December 2004 included some of the plus/minus
initiatives. We reviewed the budget briefing materials and noted that some of the initiatives
were those requested by divisions and offices in July 2004 (prior to the Budget Send) and that
some of the initiatives and cost reductions were from the plus/minus 10-percent consolidated
list. We identified only two initiatives that were part of the division’s and office’s responses to
the plus/minus 10-percent exercise in the Budget Receive. Table 6 on the next page presents
the results of our analysis.




8
 A $2.2-million-increase proposal, FDIC Web Site Redesign, and a cost-reduction proposal (unidentified value),
FDIC Life Style Changes, on the agenda were not included on the consolidated list.


                                                        18
                                                                                        Evaluation Results



Table 6: Corporate Initiatives Funded and Cost Reductions in 2005 Budget
                                                           Amount        July 2004        +/- 10%          Division/Office
                   Funded Initiatives                     (Millions)      Initiative    Consolidated        Response to
                                                                                            List              +/- 10%
1. Training – Bank Secrecy Act Specialists                   $.4             X                X

2. Increased Staffing – Large Bank Program                   3.3             X

3. Additional Staffing – BASEL II Accord                     2.6             X

4. Hispanic Financial Literacy Outreach Program              2.4             X                X

5. Contingency Planning – Large Bank Resolution              1.0

6. Central Data Repository – First Year Operations           3.4             X

7. E-Government Technology                                   1.8                              X                  X

8. IT Security Program Enhancements                          2.8             X

9. Corporate Employee Program                                1.0

Total -- 9 Funded Initiatives                               $18.7

                                                                         July 2004       +/- 10%          Division/Office
                   Cost Reductions                                       Initiative    Consolidated        Response to
                                                                                           List               +/- 10%
1. Managing Vacancies Program                               $15.3            X

2. Resolutions Staffing Platform                           Cost not                           X                  X
                                                          indicated
3. Field Leasing Costs                                       1.1             X

4. Consolidation of IT Contracts                             1.4

5. Low Priority IT Initiatives                               2.3

Total -- 5 Cost Reduction Initiatives                       $20.1

Source: OIG analysis of consolidated list of plus/minus initiatives and initiatives funded in the 2005 Budget.

Given division and office concerns over, and lack of participation in, the plus/minus 10-percent
exercise, we believe that DOF could assess the methodology for and evaluate the impact and
benefits of the exercise on the FDIC’s budget process and determine whether there are
opportunities to enhance its usefulness.




                                                          19
                                                                       Evaluation Results



Integration of Planning and Budgeting With Performance Management

The FDIC has made progress in integrating budget and performance goal information. For
example, in developing the 2005 corporate operating budget, the FDIC used a more integrated
planning and budgeting process that was an improvement over the 2001 CPC wherein the
staffing, budgeting, and planning processes overlapped and were not as well integrated.
However, the FDIC does not have a corporate directive that documents the FDIC’s planning and
budgeting framework and integration adopted for the 2004 and 2005 budgets. In addition, the
Corporation’s establishment and use of two performance measures is an issue warranting
further review.

Government-wide Focus on Planning and Budgeting

Over the last decade, the Congress, the OMB, and other executive agencies have worked to
implement a statutory and management reform framework to improve the performance and
accountability of the federal government. Key components of this framework include the GPRA
and the Chief Financial Officers Act. These reforms were designed to improve congressional
oversight and executive decision making by providing objective information on the relative
effectiveness and efficiency of federal programs and spending.

The current administration has taken several steps to strengthen the integration of budget, cost,
and performance information. For example, the administration has made the integration of
budget and performance information (BPI) one of five government-wide management priorities
under the President’s Management Agenda (PMA). The BPI emphasizes improving outcome
measures and monitoring of program performance.

Additionally, in 2002, OMB introduced the Program Assessment Rating Tool (PART) into the
executive branch for budget deliberation as the central element in performance budgeting for
the PMA. PART applies 25 questions to federal programs under four broad topics: (1) program
purpose and design, (2) strategic planning, (3) program management, and (4) program results
(i.e., whether a program is meeting its long-term and annual goals). PART builds on the GPRA
by actively promoting the use of results-oriented information to assess programs in the budget.

Finally, as part of the BPI, OMB provided guidance to agencies on restructuring their
appropriations accounts and congressional budget justifications and, beginning with the fiscal
year 2005 budget, required agencies to submit a “performance budget” that integrates the
annual performance plan and congressional budget justification into one document.

The FDIC is subject to certain provisions of the GPRA, specifically, the requirement to prepare
and submit a strategic plan and an annual performance plan. The FDIC has determined that it
is not required to participate in OMB’s PART reviews or to prepare a performance budget.

2005 Planning and Budget Formulation

We concluded that the FDIC has improved integration of the corporate planning and budget
processes. For example, the FDIC’s 2005 planning and budget formulation process started in
July 2004 with a DOF-sponsored meeting of corporate senior executive management to provide
an overview of the 2005 planning and budget process. DOF held another meeting in July 2004
wherein senior executive managers discussed plans and projected workloads and established
guidelines for the 2005 planning and budget formulation exercise, which provided an


                                               20
                                                                              Evaluation Results



explanation of DOF’s development of baseline operating budgets and information regarding
2005 goals and objectives. Excerpts from the guidelines are provided in Table 7.

Table 7: Excerpts From the 2005 Planning and Budget Guidance
 Development of Baseline         DOF will develop baseline operating budgets for each FDIC
 Operating Budgets               organization. Baseline budgets will generally be based on actual
                                 2004 spending, with adjustments for projected 2005 inflation where
                                 appropriate (4.3% for salaries and benefits costs, 1.5% for non-
                                 compensation costs).
 2005 Goals and                  An APP target/indicator will be submitted by DSC on supervisory
 Objectives                      efforts to address money laundering, terrorism, and related threats.
                                 DSC will also submit an APP target/indicator on the FDIC’s large
                                 bank and Basel-related activities. The 16 high-level CPOs are
                                 tentatively affirmed to continue in 2005, although divisions and
                                 offices may propose changes in those objectives in their 2005
                                 planning/budget submissions.
Source: 2005 Planning and Budget Formulation Guidelines.

DOF’s Budget Send also included the guidelines established by senior executive management;
proposed 2005 APP annual goals, indicators, and targets; and proposed 2005 CPOs.

We reviewed the 2004 responses to DOF regarding division and office reviews of the 2005
proposed planning and budget documents and found that several organizations proposed
changes to the CPOs and the APPs. Specifically, in regard to the CPOs, one division proposed
a new CPO, four divisions or offices offered new initiatives, and one division proposed
rewording a CPO initiative. Five divisions or offices also offered changes to the proposed 2005
APP goals, targets, and indicators.

In October 2004, FDIC senior executive managers held a 2-day planning and budget
conference intended to finalize the proposed plans and budget for 2005. The January 2005
edition of FDIC News included an article entitled, “The 2005 Budget: Responding to a Changing
Industry,” which featured an interview with the CFO who portrayed the October meeting as
follows:

        On the first day of the conference, senior managers discuss plans and goals and do not
        focus on numbers at all. Senior managers talk about changes in the banking industry
        and how the FDIC needs to position itself. Senior managers look at workload, goals for
        the prior year, performance against those goals, and what the goals should be going
        forward. On the second day of the conference, senior managers go through a sorting
        process, determining the new initiatives that need funding and where there are
        opportunities to save money. Senior managers review, prioritize, debate, and make
        decisions on each division and office budget. Senior managers also finalize the
        corporate goals and objectives for the coming year.

The FDIC Chairman finalized the FDIC budget and approved the 2005 CPOs in December
2004, prior to the start of the 2005 budget year. However, FDIC executive managers further
modified the CPOs following discussions at the annual Leadership Conference in February
2005. One of the changes was an additional initiative – heighten the awareness of the banking
industry and the public about major consumer protection issues, including identity theft and
financial privacy, predatory lending, and access to affordable financial services. The initiative is
included in the strategic objective of Sound Policy and the high-level goal to enhance the FDIC’s
leadership role in federal banking policy deliberations. The FDIC’s COO and CFO explained


                                                     21
                                                                         Evaluation Results



that while DOF strived to complete the budget and CPOs prior to the budget year, the FDIC has
to maintain flexibility to amend its corporate goals to reflect emerging issues and risks.

Corporate Directives

We concluded that the FDIC needs to update its corporate guidance for the planning and
budget process. DOF issues a planning and budget guide to divisions and offices each budget
year. However, the FDIC does not have a corporate directive that documents the planning and
budget framework that the FDIC adopted for the 2004 and 2005 budgets.

The FDIC directive currently in place for the planning and budget process is Circular 4100.1,
FDIC 2001 Planning and Budget Guide, dated November 2, 2000. The circular provides
guidance on the preparation and submission of all deliverables associated with only the 2001
planning and budgeting process, culminating in the approval of the Corporation’s 2001 budget.
The circular states that the corporate budget is linked to the Corporation’s Strategic Plan
through the FDIC’s APP and division and office APPs. The circular does not reflect the baseline
budgeting process implemented for the 2004 and 2005 budgets, the budget and planning
responsibilities of DOF’s CPPM, or the division and office input to APP or CPO goals and
initiatives. DOF stated that it had requested that DOA cancel Circular 4100.1 and omit it from
the FDIC’s Directive System. However, as of the date of this report, Circular 4100.1 is still in the
FDIC Directive System.

FDIC Circular 1212.1 entitled, FDIC Directive System, dated September 14, 2000, states that
the FDIC uses directives to issue its policies and procedures and to provide written information
to managers, employees, and others. According to Circular 1212.1, an effective directive
system is extremely important because it provides for the orderly and efficient accomplishment
of responsibilities, increases management control, and provides continuity of operations. We
agree with the FDIC’s position on the importance of directives and believe that a new directive is
needed to institutionalize and increase the familiarity with and knowledge of the streamlined
planning and budgeting process adopted for the corporate operating budget.

Matter for Further Review: Annual Performance Plan Goals and Corporate
Performance Objectives

As discussed earlier, the FDIC has two sets of performance measures that factor into the
corporate operating budget; the statutorily required APP and the CPOs. Adopting a single set of
performance measures would, in our view, streamline and better integrate the planning and
budget process as well as align the goals with performance. Nevertheless, FDIC senior
executives have determined a need exists for both the APP and the CPOs, and the Corporation
is not inclined to consolidate these measures. We plan to perform additional evaluation work
related to the FDIC’s performance measures and report on this issue in a separate report.




                                                22
                                                                       Evaluation Results



Recommendations
To ensure that division and office budget representatives have adequate information to review
and respond to Non-CIRC IT and external training allocations and plus/minus 10-percent
exercises in future planning and budget cycles, we recommend that the Director, DOF:

1. Revise DOF budget instructions to divisions and offices to more clearly describe the detailed
   support and methodology for developing the Non-CIRC IT allocation; the procedure for
   communicating the approved allocations to divisions and offices; and the requirement that
   divisions and offices obtain DIT concurrence and signature to approve (a) reductions of the
   maintenance and sustaining base and (b) proposed initiatives to be pursued by each
   division/office with its discretionary funds.

2. Revise DOF budget instructions to divisions and offices to more clearly describe the detailed
   support and methodology for developing the external training allocation and the procedure for
   communicating approved allocations to divisions and offices.

3. Provide the division and office planning and budget representatives the results and
   accompanying benefits of the plus/minus 10-percent exercise for the 2004 and 2005 budget
   cycles, provide more detailed guidance for identifying budget increase or decrease proposals
   for future budget cycles, and revise DOF budget instructions to describe how the approved
   plus/minus proposals will be communicated to the division and office planning and budget
   representatives.

To communicate and institutionalize the streamlined planning and budget process to all
corporate employees, we recommend that the Director, DOF:

4. Develop and issue a corporate directive that establishes management’s expectations for the
   corporate planning and budget process to include:

    •   roles and responsibilities of those involved in strategic and annual business planning,
        formulation and execution of budgets, and budget and performance plan reporting;
    •   an overview of the planning and budgeting process, including strategic planning,
        development of workload assumptions, annual performance planning, corporate
        performance planning (CPO), baseline budgeting formulation, senior management
        review and approval, and FDIC Board review and approval;
    •   high-level planning and budget schedule outlining the key elements of the process;
    •   authority and legal citations;
    •   references to other related directives, such as directives on performance measurement,
        and management and executive compensation; and
    •   planning, budget, and performance reporting requirements.




                                               23
                                                                        Evaluation Results



Corporation Comments and OIG Evaluation
On September 2, 2005, the Director, DOF, provided a written response to the draft report, which
is presented in its entirety in Appendix IV of this report. DOF agreed or agreed in part with each
recommendation. Appendix V presents a summary of the FDIC’s responses to our
recommendations. Recommendations 1, 2, and 3 relate to revisions to DOF budget guidance
on the Non-CIRC IT allocation, external training allocation, and plus/minus 10-percent exercise.
In response to recommendations 1 and 2, DOF stated that while it had not revised budget
guidance, it had held numerous meetings and communications with division and office
representatives to more clearly explain these processes. DOF also noted that the CU
Governing Board had approved a concept to phase in a personal learning account program by
2007 to replace the external training allocation process.

Subsequent to providing its written response, DOF provided additional information evidencing
that meetings were held to improve communications with DIT and the divisions/offices regarding
the Non-CIRC IT allocation. We reviewed the 2006 budget guidance and noted that DOF had
added language to emphasize the requirement for DIT concurrence on the division/office non-
CIRC IT submissions and to communicate that the external training allocation was being
replaced by a new Personal Learning Account Program. DOF gave us documentation to
support the efforts to more clearly communicate with divisions/offices on this new initiative and
its impact on the divisions’ and offices’ proposed 2006 training budgets. We concluded that
DOF’s alternative actions met the intent of our recommendations and were sufficient to resolve,
disposition, and close recommendations 1 and 2.

For recommendation 3, DOF agreed to issue a summary of the disposition of the plus/minus
10-percent ideas submitted during the 2006 budget process. However, DOF did not see the
need to assess the methodology for and evaluate the impact and benefits of the plus/minus
10-percent exercise on the FDIC’s budget process or for additional guidance to divisions and
offices. The CFO 2004 study of the planning and budgeting processes raised concerns about
the exercise, the findings detailed in our report questioned the value of the exercise, and most
division and office representatives that we interviewed expressed the need for clarification on
the exercise. Therefore, we encourage DOF to reconsider evaluating the implementation and
the benefits of the exercise when planning for the 2007 CPC process. Nevertheless, we
concluded that DOF’s planned action is sufficiently responsive to resolve recommendation 3,
but it will remain undispositioned and open until we have determined that the agreed-to
corrective action has been completed and is effective.

Finally, with respect to recommendation 4, DOF agreed to develop a corporate directive on the
planning and budgeting process that will cover all or most of the recommended content. DOF
responded that staff has already started work on the directive and anticipates circulating a draft
directive for comment by the end of the first quarter 2006. The action taken and planned by
DOF management is responsive to the recommendation. However, the recommendation will
remain undispostioned and open until we have determined that the agreed-to corrective action
has been completed and is effective.




                                                24
                                                                                     Appendix I



Objectives, Scope, and Methodology
We performed this evaluation at the request of the CFO who asked that the OIG follow up on a
July 2001 study of the CPC that we conducted jointly with the Office of Internal Control
Management (OICM), now OERM. In early 2004, DOF requested that we postpone the start of
this assignment until the last quarter of calendar year 2004 to allow the FDIC to complete a
second budget cycle under its new baseline budgeting methodology as opposed to the prior
methodology wherein the divisions and offices developed “bottom-up” budgets. In addition,
DOF and the CFO requested that we benchmark the Corporation’s CPC process against other
agencies’ and organizations’ processes. The CPC includes the following processes: planning,
workload assumptions, and budgeting.

Accordingly, using the July 2001 study as a baseline, the objectives of this evaluation were to:

   •   determine whether DOF was successful in reducing resources dedicated to the CPC and
       streamlining the CPC process;
   •   assess the FDIC’s success in integrating budget and performance goal information; and
   •   benchmark the Corporation’s process against other agreed-upon agencies’ or
       organizations’ processes.

The scope of our evaluation focused primarily on the 2005 CPC. However, we learned that
CFO staff had performed an internal study, 2004 Budget and Planning Formulation Post-
Mortem. Accordingly, we sought information available regarding the 2004 study to identify the
reported findings and recommendations and determine whether any recommended corrective
actions had been implemented for the 2005 CPC process.

To identify the number of individuals involved in the CPC process, we asked the planning and
budget contacts in each division and office to identify those individuals within the division or
office (including regional and field office contacts) that were responsible or provided input for the
planning, workload assumptions, and budgeting processes.

We performed field work in the FDIC divisions and offices located in Washington, D.C. The
business line divisions are DSC, DIR and DRR. The support divisions included: DOA, DIT, the
Legal Division, DOF, and CU. The offices included OERM, Office of Public Affairs (OPA), Office
of Ombudsman, Office of Executive Secretary, Office of Legislative Affairs (OLA), Office of
Diversity and Economic Opportunity (ODEO), and the OIG. In addition, we performed field
work, for benchmarking purposes, at other agencies and organizations, specifically, the OCC,
FRB, NCUA, Department of Labor (DOL), and Pension Benefit Guaranty Corporation (PBGC).

We performed our evaluation from November 2004 through June 2005 and in accordance with
generally accepted government auditing standards. To accomplish our objectives, we
performed the following.

   •   Prepared analysis of observations and suggestions stemming from the 2001 OIG/OICM
       study of the CPC.
   •   Obtained and reviewed DOF’s schedule for the Proposed 2005 Planning Process and
       Budget Process.
   •   Developed a timeline of critical planning and budget activities for 2001 through 2005.
   •   Interviewed officials in DOF’s CPPM Section.



                                                 25
                                                                                  Appendix I



   •   Developed and used a standard questionnaire to conduct interviews with division and
       office planning and budget representatives.
   •   Interviewed budget/planning representatives in each of the FDIC headquarters divisions
       and offices, with the exception of the Executive Office.
   •   Identified FDIC contracting information relating to the CPC process.
   •   Discussed the process for developing corporate workload assumptions with DIR.
   •   Reviewed DOF’s Budget Send, Budget Receive, and Final Board Approved Budget for
       2005.
   •   Reviewed relevant planning and budget documentation including: 2005-2010 FDIC
       Strategic Plan; FDIC 2004 and 2005 Annual Performance Plans; 2002-2005 CPOs; and
       notes/handouts from the July 8, 2004 (Overview of the 2005 Planning and Budget
       Process) Budget Kick-off Meeting and July 21, 2004 Executive Meeting on establishing
       2005 Planning and Budget Guidance and from the 2005 Budget Conference held on
       October 4-5, 2004.
   •   Conducted interviews with OCC, FRB, NCUA, DOL, and PBGC planning and budgeting
       representatives regarding benchmarking.
   •   Researched requirements of GPRA and OMB Circular A-11, Parts 2 and 6, and obtained
       information on their applicability to the FDIC.

We did not evaluate whether the streamlined budget procedures, and particularly the use of
baseline budgets from prior years as the starting point for new budgets, resulted in a more
effective and efficient allocation of resources.

Validity and Reliability of Performance Measures

We reviewed the FDIC’s performance measures under the GPRA, the CPOs, and DOF’s annual
performance plan. We determined that the 2004 and 2005 CPOs included an initiative to
reduce corporate operating costs through the following goals.

   •   2004 CPO Goal: Substantially reduce corporate operating costs.
   •   2005 CPO Goal: Submit a proposed 2006 ongoing operations budget that is at least 5
       percent lower than the 2005 budget.

Further, DOF’s 2004 and 2005 Annual Performance Plans included the following goals related
to planning and budgeting.

   •   2004 Goal: Perform an assessment of 2004 budget formulation process, and make
       appropriate changes to 2005 process.
   •   2005 Goal: Implement for the 2006 process any accepted recommendations from the
       OIG evaluation of the corporate planning and budget process.

We did not test to determine whether specific internal control procedures had been properly
designed and placed in operation to provide reasonable assurance for the validity and reliability
of these performance measures because the evaluation objectives did not require that level of
effort. We plan to perform a GPRA evaluation at a later date.

Reliability of Computer-based Data

We identified and relied on some computer-based data pertaining to the following systems that
DOF used to assist in the CPC. However, we did not test the reliability of computer-based data


                                               26
                                                                                  Appendix I



extracted from these automated systems because our evaluation objectives did not require
determining the reliability of computer-based data obtained from the FDIC’s systems.

   •   Business Planning System and supporting subsystems
   •   Project Number Information Application, which originates from DOF’s Financial Data
       Warehouse
   •   DIT’s Project Budget System

Internal Control

We gained an understanding of relevant control activities by (1) reviewing the FDIC’s processes
for strategic planning; annual performance planning and reporting; developing CPOs; estimating
staffing requirements; formulating the corporate operating budget; and approving the corporate
operating budget, and (2) by assessing the FDIC’s progress in integrating budget and planning
and streamlining the process. To gain this understanding, we interviewed individuals dedicated
to planning, workload assumptions, and budget formulation. In addition, we reviewed the 2001-
2006 strategic plan, 2004 and 2005 performance plans, 2004 annual and quarterly performance
reporting, 2002-2005 CPOs, workload assumptions, budget and planning information
disseminated to and received from division and office directors, and the final Board approval of
the corporate operating budget. The finding section of the report contains recommendations to
strengthen certain policies and procedures and guidance.

Laws and Regulations and Fraud and Illegal Acts

The objectives of this evaluation did not require us to determine whether the FDIC was in
compliance with laws and regulations related to the CPC. However, the FDIC is subject to
certain aspects of the GPRA. The FDIC’s position is that portions of the GPRA specifically
apply to the Corporation. Under the GPRA, the FDIC is required to prepare and submit to the
OMB a 5-year strategic plan and an annual performance plan. The FDIC is also required to file
an Annual Report on Program Performance to the Congress.

The nature of our evaluation objectives did not require that we assess the potential for fraud and
illegal acts. However, throughout the evaluation, we were alert to the potential for fraud and
illegal acts, and no instances came to our attention.




                                               27
                                                                                          Appendix II



Other Agency Practices
As requested by DOF and the CFO, we benchmarked the Corporation’s planning and budgeting
processes against other agreed-upon agencies’ or organizations’ processes. We selected other
federal financial institution regulators, i.e., FRB, OCC, and NCUA, as well as DOL and PBGC
for our benchmarking analysis. DOL was selected because OMB gave these organizations a
“green light” score9 under a 2004 PART assessment. In addition, we contacted the OTS, which
was in the process of changing its planning and budgeting process. OTS suggested that it may
not be beneficial to include the organization in our benchmarking evaluation as its new
processes had not been fully implemented. Thus, we eliminated OTS from our analysis.

We met with the planning and budget formulation staff at FRB, OCC, NCUA, DOL, and PBGC to
determine how these other agencies/organizations approached or accomplished their planning
and budgeting processes. We discussed the following topics, related to planning, staffing, and
budgeting during our meetings with each of the five agencies:


    Benchmarking Discussion Topics Relating to Planning, Staffing, and Budgeting

       •   an overview of the agency’s strategic and annual planning process (GPRA);
       •   an overview of the agency’s staffing requirements process;
       •   an overview of the agency’s budget formulation process;
       •   the agency’s general approach to budgeting, e.g., top-down, bottom-up, baseline, 1- or
           2-year cycle, etc.;
       •   whether the agency has any performance objective or initiative processes in addition to
           GPRA;
       •   the number of staff involved and time frames for each of the planning, staffing and budgeting
           processes;
       •   how the agency integrates the budgeting and planning processes; and
       •   whether the agency has guidance or procedures for the planning and budgeting processes
           and whether the agency received any guidance in regard to achieving the goals of the
           President’s Management Agenda Initiative 5 – Budget and Performance Integration

    Source: OIG analysis.


Based on overviews provided by the five agencies, we identified the following as other agency
practices in the area of planning and budgeting:

1) Start the planning activities as early in the cycle as possible. For example, the PBGC
   started its planning sessions in November 2004 for its 2007 (fiscal year) budget and will
   begin preparing its baseline budget in March 2005. NCUA held its strategic leadership
   conference in January 2005 as a kickoff for NCUA’s 2006 planning and budgeting process.

2) Assess programs using OMB’s PART. DOL views PART as a good diagnostic tool to help
   identify weaknesses in a program and attributes DOL’s success in integrating budget and
   performance to PART. Additionally, OMB has completed a PART review at PBGC and of
   one NCUA program and has a second review planned.


9
 The OMB Scorecard uses the concept of red, yellow, and green stoplights to indicate agencies’ status
and progress made in PMA initiatives.


                                                      28
                                                                                     Appendix II



3) Prepare a Performance Budget. NCUA developed its 2005 Annual Performance Budget to
   serve as an element of budget development and reflect a greater correlation between
   NCUA’s strategic and annual performance goals and resource allocation. FRB is also
   developing a performance budget.

4) Adopt a 2-year budget. The FRB believes that the 2-year budget allows more time for
   planning and is less of an administrative burden. The FRB implemented a 4-year planning
   and 2-year budget cycle in 1997. According to documentation we obtained, its goal was to
   provide a more comprehensive strategic planning framework and greater involvement by the
   FRB Board in setting priorities. The FRB budget formulation cycle extends from June to
   November every other year. The FRB completes an annual review of the budget and an
   assessment of the expenses and performance and provides the results of both to the Board.

5) Adopt one set of performance measures. The FRB, NCUA, and DOL use their GPRA goals
   to measure annual performance. PBGC senior and second-level managers develop GPRA
   corporate-level goals and initiatives, and program managers establish stretch/target goals
   that are related to the GPRA corporate-level initiatives.

6) PBGC requires business cases for new initiatives. Business cases must identify the benefits
   to the PBGC and the manner in which the initiative supports the PBGC’s goals.

Table 8 presents a summary of the practices employed by the five agencies that we reviewed.

Table 8: Summary of Other Agency Practices

             Practices                                Agencies/Organizations


                                          DOL   FRB           NCUA             OCC       PBGC


 Start planning activities early                                X               X


 Assess programs using
                                           X                    X
 OMB’s PART


 Prepare a performance budget                    X              X


 Adopt a 2-year budget                           X


 Adopt one set of performance
                                           X     X              X               X         X
 measures


 Prepare business cases for
                                                                                          X
 new initiatives
Source: Interviews with other agencies.




                                                29
                                                                                               Appendix III



Planning and Budget Guidance
DOF presented a proposal to streamline the planning and budgeting process to the FDIC’s
Operating Committee on May 8, 2003 that included the following key elements.


                        Proposed 2004 Planning and Budget Formulation Process

 •   Proposed 2004 budget/staffing targets would be developed centrally for each division and office. DOF
     would calculate a 2003 spending baseline for each division and office, adjustments to the 2003 spending
     baseline would be made to reflect 2004 planning/budget guidelines established by senior management, and
     divisions and offices would have 30 days to confirm or identify exceptions to their proposed 2004 budgets.




 •   Corporate planning activities would be fully integrated into a consolidated planning and budget formulation
     process, including Annual Performance Plan goals and corporate/business line performance objectives.




 •   Senior management would perform a collective review of proposed 2004 Corporate Performance
     Objectives, spending priorities, and cost reduction ideas at a 2-day senior management retreat.




 •   The review process for planned contract spending would be simplified.




 •   Projected timeframes would start in mid-July with senior management establishment of 2004 planning and
     budget guidelines and end in mid-October through mid-November with the proposed budget and staffing
     briefing to the FDIC Chairman and the Board.
Source: May 8, 2003 DOF presentation to the FDIC Operating Committee.

DOF also used this process for the 2005 planning and budget formulation exercise. On
August 13, 2004, DOF issued planning and budget guidance for the 2005 budget formulation
exercise that consisted of a memorandum transmitting the respective division or office 2005
operating budget (Attachment 1 of the memorandum contained 9 major expense categories)
and 14 other attachments. The memorandum included (1) a statement that the proposed
operating budget was based on projected 2005 spending with adjustments to reflect workload
and other factors identified in the 2005 corporate planning guidelines adopted at the July 21,
2004 senior management meeting and (2) a footnote stating that projected spending generally
reflected actual expenses through June 30, 2004 and budgeted expenses for the remainder of
the year (not to exceed the 2004 budget). DOF’s 2005 Budget Send documents are listed on
the next page.




                                                        30
                                                                                           Appendix III



                                            Budget Send Package


  •   Attachment 1 – Proposed 2005 Operating Budget (Excludes CIRC Investment Projects Non-Salaries and
      Compensation).

  •   Attachment 2 – Proposed 2005 Staffing Authorization.

  •   Attachment 3 – 2005 Budgeted Staff.

  •   Attachment 4 – Projected Program Code Distribution By Major Expense Category.

  •   Attachment 5 – Instructions for Completing Division/Office Review of Proposed 2005 Plans and Operating
      Budgets.

  •   Attachment 6 – 2005 Planning and Budget Formulation Guidelines (Based on FDIC Senior Management
      Discussion on July 21, 2004).

  •   Attachment 7 – Corporate Workload Assumptions (2004-2009).

  •   Attachment 8 – 2005 Proposed IT Allocation (estimates of the system maintenance/sustaining base
      requirements that must be met).

  •   Attachment 9 -- Proposed 2005 Annual Goals, Indicators, and Targets (APP) By Supervision, Insurance,
      and Receivership Management Programs.

  •   Attachment 10 – Proposed 2005 Corporate Performance Objectives.

  •   Attachment 11 – 2005 Planning/Budget Checklist.

  •   Attachment 12 – 2005 Budget Increase/Decrease Proposals.

  •   Attachment 13 – Projected 2005 Contract Spending.

  •   Attachment 14 – Projected 2005 Non-CIRC Information Technology Initiatives.

  •   Attachment 15 – 2005 Fund Allocation Percentages.

Source: DOF’s 2005 Budget Send.




                                                        31
                       Appendix IV



Corporation Comments
                                                                                                                                            Appendix V




Management Response to Recommendations
This table presents the management response on the recommendations in our report and the status of the recommendations as of
the date of report issuance.

                                                                                                                                                     Open
 Rec.                                                                        Expected          Monetary      Resolved:a      Dispositioned:b           or
                                                                                                                                                           c
Number            Corrective Action: Taken or Planned/Status               Completion Date     Benefits      Yes or No          Yes or No           Closed
              DOF conducted numerous meetings with division and
      1       office budget contacts, selected division and office IT   Completed                 $0             Yes               Yes               Closed
              liaison staff, and DIT representatives regarding the
              development of non-CIRC IT allocations, the
              procedures to be followed in reviewing the
              allocations, and the requirement for DIT concurrence.
              CU’s Governing Board is in the process of phasing
      2       out all Type I and Type II training by 2007, and is       Completed                 $0             Yes               Yes               Closed
              replacing the training with a new Personal Learning
              Account Program to be governed by procedures
              issued by CU. DOF is devoting considerable effort to
              effectively communicate with divisions/offices the new
              Personal Learning Account initiative and its impact on
              their proposed 2006 budget.
              DOF will issue a summary of the disposition of the
      3       initiatives submitted in response to the plus/minus 10    January 31, 2006          $0             Yes               No                Open
              percent exercise for the 2006 budget process.
      4       DOF will prepare and circulate for comment a draft
              directive on the planning and budgeting process that      March 31, 2006            $0             Yes               No                Open
              will cover all or most of the recommended content.

a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered
                   resolved as long as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                               37
